No. 20-659

 

 

In THE
Supreme Court of the United States

LARRY THOMPSON,

Petitioner,
Vv.

POLICE OFFICER PAGIEL CLARK, SHIELD #28472
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF NATIONAL, STATE, AND LOCAL
CRIMINAL DEFENSE, CIVIL RIGHTS, AND
RACIAL JUSTICE ORGANIZATIONS
AS AMICI CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,769 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
